 Department of Health and Human Services
                    OFFICE OF

               INSPECTOR GENERAL



NORWALK ECONOMIC OPPORTUNITY

   NOW, INC., DID NOT ALWAYS

 CHARGE ALLOWABLE COSTS TO THE

COMMUNITY SERVICES BLOCK GRANT

  AND THE COMMUNITY SERVICES

    BLOCK GRANT – RECOVERY

         ACT PROGRAMS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.



                                                       Kay L. Daly

                                                Assistant Inspector General


                                                         April 2013

                                                       A-01-11-02510

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Opportunities, Accountability, and Training and Educational Services Act of
1998 (COATES Act), P.L. 105-285 authorized the Community Services Block Grant (CSBG)
program to provide funds to States and local communities to alleviate poverty. Within the U.S.
Department of Health and Human Services, the Administration for Children and Families (ACF),
Office of Community Services, administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAA) that
create, coordinate, and deliver programs and services to low-income Americans. The CAAs
provide services and activities addressing employment, education, housing, nutrition, emergency
services, and the better use of available income. The CSBG program awarded $689 million in
fiscal year (FY) 2010, $668 million in FY 2011, and $667 million in FY 2012.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided $1 billion for the CSBG program. ACF distributed Recovery Act
CSBG funds to States and local communities using an existing statutory formula. These funds
were provided to States and local communities (working through a network of CAAs and other
neighborhood-based organizations) to help reduce poverty, revitalize low-income communities,
and empower low-income families and individuals in rural and urban areas to become fully self-
sufficient.

Section 676(a) of the CSBG Act requires each State to designate a State agency as the lead
agency for carrying out the State’s CSBG activities. The State of Connecticut designated its
Department of Social Services (State agency) as the lead agency for carrying out State activities
for the CSBG program, pursuant to section 17b-2 of the Connecticut General Statutes. The State
agency is responsible for approving CAA Recovery Act grant applications and for monitoring
CAAs’ compliance with program requirements.

Norwalk Economic Opportunity Now, Inc. (NEON), is a not-for-profit CAA that provides social
programs and services to economically vulnerable populations in and around Norwalk,
Connecticut. For the period October 1, 2009, through September 31, 2012, the State agency
awarded to, and claimed on behalf of, NEON $722,336 in CSBG funds. The State agency
awarded to, and claimed on behalf of, NEON an additional $357,651 in CSBG Recovery Act
funds from July 1, 2009, through September 30, 2010.

OBJECTIVE

Our objective was to determine the allowability—under the terms of the grants and applicable
Federal requirements—of selected CSBG and CSBG Recovery Act costs that the State agency
claimed on behalf of NEON.




                                                i
SUMMARY OF FINDINGS

Of the $513,779 in CSBG and CSBG Recovery Act costs that the State agency claimed on behalf
of NEON and that we reviewed, $199,174 was allowable under the terms of the grant and
applicable Federal regulations. However, the State agency claimed $314,605 (or 61 percent of
reviewed expenditures) in unallowable costs on behalf of NEON. These costs included:

   •   $144,319 for costs with inadequate documentation or that were not reasonable for the
       performance of the program;

   •   $93,415 in indirect expenses charged to the grants based on an unallowable methodology;

   •   $57,040 in operating costs that were not reasonable and renovation costs without a
       Federal waiver that did not meet program objectives;

   •   $14,327 in prohibited lobbying, fundraising, and donations; and

   •   $5,504 in missing equipment.

These deficiencies occurred because NEON’s policies and procedures did not ensure that it
complied with all Federal grant requirements. Additionally, NEON did not have adequate
controls in place for maintaining adequate documentation, ensuring program objectives were
met, preventing personal purchases, and safeguarding equipment to ensure that it charged only
allowable costs to its CSBG and CSBG Recovery Act grants.

RECOMMENDATIONS

We recommend that the State agency:

   •   return to the Federal Government unallowable costs, totaling $314,605, that it claimed on
       behalf of NEON and

   •   ensure that NEON establishes and implements policies, procedures, and related internal
       controls to:

           o comply with all Federal grant requirements,

           o ensure that it charges only allowable costs to the CSBG program, and

           o ensure that it follows generally accepted, sound business practices.

NORWALK ECONOMIC OPPORTUNITY NOW COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NEON did not fully concur with our first
recommendation and provided details of the corrective actions it has taken in response to our

                                                ii
second recommendation. Regarding our first recommendation that the State agency return to the
Federal Government unallowable costs totaling $314,605, NEON stated that it “is not reasonable
to hold the State (or NEON) solely responsible for the actions of specific, identifiable individuals
who are directly responsible for wrongdoing ….”

States must repay the Federal Government amounts found not to have been expended in
accordance with the CSBG program requirements, or ACF may offset such amounts against
future CSBG grants (COATES Act § 678D(a)(3)). We, therefore, maintain that our first
recommendation is correct.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
outlined corrective actions to (1) return funds to the Federal Government and (2) establish and
implement policies and procedures to reduce the risk of noncompliance with Federal grant
requirements.




                                                 iii
                                                    TABLE OF CONTENTS

                                                                                                                                            Page

INTRODUCTION..........................................................................................................................1

  BACKGROUND ..........................................................................................................................1
     Community Services Block Grant Program ..........................................................................1
     Connecticut Department of Social Services. .........................................................................1
     Norwalk Economic Opportunity Now, Inc. ..........................................................................1

  OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................................2
     Objective ...............................................................................................................................2
     Scope .....................................................................................................................................2
     Methodology .........................................................................................................................2

FINDINGS AND RECOMMENDATIONS ................................................................................3

  UNALLOWABLE COSTS ..........................................................................................................4
     Federal Requirements ............................................................................................................4
     Costs Inadequately Documented or Not Reasonable for Program Performance ..................5

  INDIRECT EXPENSES WITHOUT AN INDIRECT COST RATE ..........................................7
     Federal Requirements ............................................................................................................7
     Unallowable Indirect Costs ...................................................................................................7

  OPERATING COSTS AND RENOVATIONS THAT DID NOT MEET PROGRAM
   OBJECTIVES ............................................................................................................................8
     Unallowable Thrift Store Operating Costs ............................................................................8
     Havilland Street Thrift Store Renovations Not Preapproved ..............................................10

  PROHIBITED LOBBYING, FUNDRAISING, AND DONATION COSTS ............................10
     Federal Requirements ..........................................................................................................10
     Lobbying, Fundraising, and Donations Prohibited .............................................................11

  MISSING EQUIPMENT ............................................................................................................11
     Federal Requirements ..........................................................................................................11
     Missing Equipment..............................................................................................................11

  UNALLOWABLE COSTS LIMITED THE RESOURCES AVAILABLE TO MEET
   PROGRAM OBJECTIVES .....................................................................................................12


                                                                      iv
 RECOMMENDATIONS ............................................................................................................12

 NORWALK ECONOMIC OPPORTUINTY NOW COMMENTS AND OFFICE OF
  INSPECTOR GENERAL RESPONSE ...................................................................................12

 STATE AGENCY COMMENTS ...............................................................................................13

APPENDIXES

 A: NORWALK ECONOMIC OPPORTUNITY NOW COMMENTS

 B: STATE AGENCY COMMENTS




                                                             v
                                      INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Opportunities, Accountability, and Training and Educational Services Act of
1998 (COATES Act), P.L. 105-285, authorized the Community Services Block Grant (CSBG)
program to provide funds to States and local communities to alleviate poverty. Within the U.S.
Department of Health and Human Services, the Administration for Children and Families (ACF),
Office of Community Services, administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAA) that
create, coordinate, and deliver programs and services to low-income Americans. The CAAs
provide services and activities addressing employment, education, housing, nutrition, emergency
services, and the better use of available income. The CSBG program awarded $689 million in
fiscal year (FY) 2010, $668 million in FY 2011, and $667 million in FY 2012.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided $1 billion for the CSBG program. ACF distributed Recovery Act
CSBG funds to States and local communities using an existing statutory formula. These funds
were provided to States and local communities (working through a network of CAAs and other
neighborhood-based organizations) to help reduce poverty, revitalize low-income communities,
and empower low-income families and individuals in rural and urban areas to become fully self-
sufficient.

Connecticut Department of Social Services

Section 676(a) of the CSBG Act requires each State to designate a State agency as the lead
agency for carrying out the State’s CSBG activities. The State of Connecticut designated its
Department of Social Services (State agency) as the lead agency for carrying out State activities
for the CSBG program, pursuant to section 17b-2 of the Connecticut General Statutes. The State
agency is responsible for approving CAA Recovery Act grant applications and for monitoring
CAAs’ compliance with program requirements. The State agency received approximately $8
million annually in CSBG Act funds and an additional $12 million in CSBG Recovery Act funds
for the State’s CSBG program.

Norwalk Economic Opportunity Now, Inc.

Norwalk Economic Opportunity Now, Inc. (NEON), is a not-for-profit CAA that provides social
programs and services to economically vulnerable populations in and around Norwalk,
Connecticut. NEON’s main programs are employment services and job training, early childhood
development and day care, housing, food vouchers, and energy cost assistance. NEON is funded
primarily through Federal, State, and local government grants.

For the period October 1, 2009, through September 31, 2012, the State agency awarded to, and
claimed on behalf of, NEON $722,336 in CSBG funds. The State agency awarded to, and

                                                1
claimed on behalf of, NEON an additional $357,651 in CSBG Recovery Act funds from July 1,
2009, through September 30, 2010.

In a prior report on NEON’s Federal Head Start program, 1 we found that NEON charged (1)
unallowable indirect expenses to Federal Head Start grants without obtaining an approved
indirect cost rate and (2) unallowable expenses to its Recovery Act Head Start quality
improvement grant. We recommended that NEON refund to the Federal government $406,434.
After we issued that report, NEON’s CEO resigned. We refer to him in this report as the “former
CEO.”

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability—under the terms of the grants and applicable
Federal requirements—of selected CSBG and CSBG Recovery Act costs that the State agency
claimed on behalf of NEON.

Scope

We reviewed $513,779 that the State agency claimed on behalf of NEON under its CSBG and
CSBG Recovery Act agreements for the period July 1, 2009, through March 30, 2012. 2 This
review is part of a series of audits that the Office of Inspector General is conducting to oversee
funds provided by the Recovery Act. We reviewed only the internal controls that related to our
objective.

We performed fieldwork at NEON’s main office in Norwalk, Connecticut, from September 2011
through May 2012.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   reviewed the Federal Excluded Parties List System to confirm that NEON was not
        excluded from receiving Federal funds;

    •   interviewed NEON’s senior management and program, human resources, and financial
        staff about NEON’s policies and procedures related to our audit objective;


1
 We issued our report entitled Results of Limited Scope Review at Norwalk Economic Opportunity Now, Inc., in
January 2012 (CIN A-01-11-02505). It is available online at https://.oig.hhs.gov.
2
 We reviewed CSBG funds for the period October 1, 2009, through March 31, 2012, and CSBG Recovery Act
funds for the period July 1, 2009, through September 30, 2010.

                                                       2
      •    reviewed the terms and conditions of the CSBG and CSBG Recovery Act agreements
           between NEON and the State agency;

      •    reviewed the State agency’s fiscal and program report that it used to monitor NEON;

      •    reviewed NEON’s articles of incorporation, bylaws, organizational chart, and minutes of
           the board of directors’ meetings;

      •    reviewed NEON’s financial policies and procedures, chart of accounts, and financial
           reports;

      •    reviewed and analyzed NEON’s annual Office of Management and Budget (OMB)
           Circular A-133 3 audit reports for FYs 2007 through 2010;

      •    judgmentally selected CSBG transactions totaling $289,263 ($4,295 in personnel and
           $284,969 in nonpersonnel costs) and CSBG Recovery Act transactions totaling $224,516
           (nonpersonnel costs) on the basis of risk factors such as whether the transactions were:

               o of high dollar value;

               o for items usually considered unallowable (e.g., construction, personal items,
                 donations, etc.); or

               o identified as high risk during our prior audit of NEON’s Head Start program; 4

      •    conducted a physical inventory of selected computers and other equipment; and

      •    discussed our findings with NEON and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                FINDINGS AND RECOMMENDATIONS

Of the $513,779 in CSBG and CSBG Recovery Act costs that the State agency claimed on behalf
of NEON and that we reviewed, $199,174 was allowable under the terms of the grant and
applicable Federal regulations. However, the State agency claimed $314,605 (or 61 percent of
reviewed expenditures) in unallowable costs on behalf of NEON. These costs included:

3
 Per OMB Circular A-133, §_.200(a), non-Federal entities “that expend $300,000 ($500,000 for fiscal years ending
after December 31, 2003) or more in a year in Federal awards shall have a single or program-specific audit
conducted for that year ….”
4
    See report No. A-01-11-02505 cited above.

                                                       3
   •   $144,319 for costs with inadequate documentation or that were not reasonable for
       performance of the program;

   •   $93,415 in indirect expenses charged to the grants based on an unallowable methodology;

   •   $57,040 in operating costs that were not reasonable and renovation costs without a
       Federal waiver that did not meet program objectives;

   •   $14,327 in prohibited lobbying, fundraising, and donations; and

   •   $5,504 in missing equipment.

NEON’s policies and procedures did not ensure that it complied with all Federal grant
requirements. Additionally, NEON did not have adequate controls in place to ensure that it
charged only allowable costs to its CSBG and CSBG Recovery Act grants.

UNALLOWABLE COSTS

Federal Requirements

Section 678D(a)(1)(B) of the CSBG Act requires that States receiving CSBG funds ensure that
recipients of those funds, such as CAAs, follow the cost and accounting standards of the Office
of Management and Budget (OMB). CAAs are subject to the requirements of 45 CFR part 74,
which covers grants awarded to nonprofit organizations. The regulations at 45 CFR § 74.27(a)
state that the allowability of costs incurred by nonprofit organizations must be determined in
accordance with 2 CFR part 230 (OMB Circular A-122), Cost Principles for Non-Profit
Organizations.

Federal cost principles (2 CFR § 230, App. A, § A.2) state that for costs to be allowable under an
award, costs must be reasonable for the performance of the award and adequately documented,
among other requirements. Further, grantees are required to maintain accounting records that are
supported by source documentation (45 CFR § 74.21(b)(7)).

Federal cost principles (2 CFR § 230, App. A, § A.4.b) state that any cost allocable to a
particular award or other cost objective may not be shifted to other Federal awards to overcome
funding deficiencies or to avoid restrictions imposed by law or by the terms of the award.

Federal cost principles (2 CFR § 230, App. B, § 11) state that compensation for the use of a
grantee’s buildings may be made through use allowance or depreciation. Use allowances or
depreciation shall be based on the acquisition cost of the building excluding (1) the cost of land
and (2) any portion of the cost of buildings paid or donated by the Federal Government. The
annual use allowance cannot exceed 2 percent of the building’s acquisition cost.

Federal cost principles (2 CFR § 230, App. B, 8.h) prohibit the portion of the cost of
organization-furnished automobiles that relates to personal use by employees from being charged
to a grant award.

                                                 4
Federal cost principles (2 CFR § 230, App. B, 19) prohibit the costs of goods or services for
personal use from being charged to a grant award.

Costs Inadequately Documented or Not Reasonable for Program Performance

NEON charged to its CSBG and CSBG Recovery Act grants a total of $144,319 for costs that
were not adequately documented or not reasonable for program performance. Specifically,
NEON charged:

   •   $71,030 for costs without supporting documentation and that were improperly transferred
       from other programs to the CSBG and CSBG Recovery Act grants,

   •   $46,463 for the use of space in a building that NEON owns that was not based on
       depreciation or use allowance;

   •   $10,763 for credit card charges made by the former CEO that were either inadequately
       documented or not reasonable for the performance of the program;

   •   $3,175 for gift cards with documentation that the director of community services said he
       recreated; and

   •   $12,888 for other costs with insufficient documentation.

Costs Transferred From Other Programs Without Supporting Documentation

NEON charged to its CSBG and CSBG Recovery Act grants a total of $71,030 for expenses that
it transferred from other programs and accounts. NEON could not provide supporting
documentation for those expenses. NEON charged costs to its programs on the basis of the
amount that it had budgeted; it did not always base those charges on actual expenses. NEON
financial staff told us that the director of finance and planning services, who has since resigned,
said that if a program exceeded its budget, financial staff should transfer the excess costs to
another account or another program. The transferred amounts were not related to specific costs
and could not be readily traced back to an original invoice or expense. For example, NEON
made 28 transfers of various amounts totaling $43,782 from other programs to the CSBG grants
with only the note “CSB” recorded in the accounting system. NEON could not provide
documentation or other evidence to link the transferred amounts with allowable costs associated
with CSBG programs.

Use Costs Not Based on Depreciation or Use Allowance

NEON charged $46,463 for space for the CSBG programs’ use of NEON’s facilities based on an
estimate by the former director of finance and planning services. However, NEON did not
provide documentation showing how the charges were calculated or supporting that the estimate
was based on depreciation or use allowance. As a result, NEON charged its CSBG grants
$46,463 for space that it could not support.


                                                 5
CEO Credit Card Charges Inadequately Documented or Not Reasonable

NEON charged its CSBG and CSBG Recovery Act grants $10,763 for credit card purchases
made by its former CEO that were either not supported or did not meet the program’s objectives.
NEON’s board of directors issued its former CEO credit cards that were to be used exclusively
for business travel and other expenses related to his duties. In reviewing the former CEO’s
credit card purchases, we found the following:

    •   NEON’s former CEO charged $4,983 for items that did not meet the program’s
        objectives. For example, the former CEO charged $733 for personal travel following a
        business conference, $624 for three briefcases, $364 in purchases from Apple iTunes, and
        $142 for two Cross pens.

    •   NEON’s former CEO charged $1,973 for costs such as fuel, car washes, and Sirius XM
        radio that were related to his company vehicle. The former CEO’s contract included a
        company vehicle that was used for both business and personal use. However, he did not
        maintain mileage logs documenting his business and personal use, despite
        recommendations to do so from State and NEON’s auditors.

    •   NEON’s former CEO made 27 credit card transactions totaling $2,478 that did not have
        adequate documentation to assess their allowability. Many of these purchases were made
        at stores that sell both business and personal items, such as restaurants (10 transactions),
        large retail stores (5 transactions), and supermarkets (2 transactions).

    •   NEON’s former CEO made 47 credit card transactions totaling $1,329 that had no
        supporting documentation. Many of these purchases were made at stores that sell both
        business and personal items, such as Apple iTunes (18 transactions) and Amazon.com
        (12 transactions).

Unallowable Gift Cards

NEON charged its CSBG Recovery Act grant $3,175 for 127 unallowable gift cards from Wal-
Mart, Barnes & Noble, and Borders. NEON intended to distribute the gift cards to fathers who
attended events that encouraged them to take a more active role in their children’s lives. As
supporting documentation, NEON’s former director of community services provided us with
attendance sheets of gift card recipients. However, when we reviewed and compared the
attendance sheets, we noted that some attendance sheets were duplicates, included staff members
as recipients, 5 and included additional signatures that had been added after these events had
taken place. The former director said that he had “recreated” some attendance sheets by
photocopying attendance sheets for Head Start events, changing some of the dates and adding
information indicating that the event recipients had received gift cards. Our analysis further
showed that information on the attendance sheets did not match the information on the finance
department’s gift card logs.
5
  The attendance sheets provided by NEON’s former director of community services indicated that the gift cards
were provided to staff members. However, the staff members told us that they did not receive gift cards as
incentives for attending fatherhood events.

                                                        6
Other Costs With Insufficient Documentation

NEON charged its CSBG and CSBG Recovery Act grants $12,888 for costs that had insufficient
documentation to assess the allowability of the transactions. For example, because of the way
that NEON’s former director of finance and planning services instructed financial staff to enter
expenses, NEON’s accounting system sometimes summarized costs that were charged to
NEON’s CSBG and CSBG Recovery Act grants on the same day into a single charge. NEON’s
financial staff could not identify or provide supporting documentation for the individual
expenses that made up the summarized costs, which totaled $9,527.

INDIRECT EXPENSES WITHOUT AN INDIRECT COST RATE

Federal Requirements

Federal regulations define direct costs as those that can be identified specifically with a particular
award, project, or service of an organization (2 CFR § 230, App. A, B.1) and indirect costs as
those that have been incurred for common or joint objectives and cannot be identified readily
with a particular final cost objective (2 CFR § 230, App. A, C.1).

The allowable methodologies that nonprofit organizations can use to allocate indirect expenses to
Federal grants are outlined in Federal regulations found at 2 CFR § 230, App. A, D.

HHS will not reimburse indirect costs unless the recipient has an indirect cost rate covering the
applicable activities and period (HHS Grants Policy Statement, page I-23). Indirect cost rates are
negotiated by HHS’s Division of Cost Allocation or another Federal agency with the authority to
negotiate indirect cost rates. However, an organization is not required to establish an indirect cost
rate (1) if the organization’s total operations consist of a single grant-supported project or (2) if
the organization properly and consistently treats all costs as direct costs to projects and accounts
for them as such. This includes being able to identify and segregate costs on the basis of a
project that assigns costs commensurate with the benefits provided to individual projects or
programs.

Unallowable Indirect Costs

NEON charged $93,415 in indirect costs to its CSBG grants using an internally developed
methodology. NEON pooled its indirect expenses, which included unallowable expenses, such
as salary for NEON’s director of development who raised funds for the organization, and
allocated the expenses to its programs based on each program’s percentage of NEON’s total
salaries. NEON’s methodology for allocating indirect costs did not properly and consistently
treat all costs as direct costs to projects and accounts for them as such. Additionally, if a
program’s indirect expenses exceeded its budget, NEON would reallocate the indirect expenses
to other programs.




                                                  7
OPERATING COSTS AND RENOVATIONS THAT DID NOT MEET PROGRAM
OBJECTIVES

NEON charged $57,040 to its CSBG and CSBG Recovery Act grants for costs that were not
allowable under Federal requirements. These costs included:

   •   $28,924 for thrift store operating costs that were not reasonable and

   •   $28,116 for thrift store renovations that were not preapproved.

Unallowable Thrift Store Operating Costs

Federal Requirements

Federal requirements for nonprofit grant recipients specify that for a cost to be allowable under a
grant award, it must be reasonable for the performance of the award and conform to any
limitations set by the award (2 CFR § 230, App. A, § A.2). Further, 2 CFR § 230, App. A,
§ A.3, defines a reasonable cost as one that does not exceed that which would be incurred by a
prudent person under the circumstances prevailing at the time the decision was made to incur the
cost.

In determining the reasonableness of a cost, consideration is given to (1) whether the cost is
ordinary and necessary for the performance of the award; (2) the restraints or requirements
imposed by such factors as generally accepted sound business practices, arms-length bargaining,
Federal and State laws and regulations, and terms and conditions of the award; and (3) whether
the individuals concerned acted with prudence in the circumstances (2 CFR § 230, App. A, §
A.3).

Compensation for the use of a grantee’s buildings may be made through use allowance or
depreciation (2 CFR § 230, App. B, § 11). Use allowances or depreciation are based on the
acquisition cost of the building excluding (1) the cost of land and (2) any portion of the cost of
buildings paid or donated by the Federal Government. The annual use allowance cannot exceed
2 percent of the building’s acquisition cost.

Program income shall be retained by the recipient and shall be (1) added to program funds and
used to further program objectives or (2) deducted from the total allowable program costs in
determining the net allowable costs on which the Federal share of costs is based (45 CFR §
74.24(b)). Program income is the gross income earned by the recipient that is directly generated
by a supported activity or earned as a result of the award. Program income includes, but is not
limited to, the use or rental of real or personal property acquired under federally funded projects
(45 CFR § 74.2).

Operating Costs Did Not Meet Program Objectives

In its CSBG Recovery Act project proposal, NEON stated that it would use grant funds to
establish a nonprofit thrift store at property that it owns at 24 Havilland Street, which would

                                                 8
create at least five retail jobs in the store and provide a job training site for NEON clients with
little-to-no work history.

NEON did not meet its program objectives of operating a thrift store, creating retail jobs, and
training clients as it described in its project plan. Specifically, we found that:

    •   NEON could not obtain the appropriate permits from the City of Norwalk to operate a
        thrift store because 24 Havilland Street is located in an area where retail businesses are
        prohibited by city regulations;

    •   NEON did not use the second floor of 24 Havilland Street as a job training site; instead, it
        converted the space into a two-bedroom apartment that was rented at below fair-market
        value to the former CEO’s ex-wife for $600 per month (including utilities, parking,
        telephone, cable, and Internet access);

    •   none of NEON’s clients received retail job experience at the thrift store, according to
        NEON staff;

    •   NEON hired only one employee to operate the thrift store, the former CEO’s ex-wife,
        who lived outside of NEON’s service area at the time that she was hired;

    •   the thrift store was closed during six out of seven unannounced visits that we made
        during business hours; 6

    •   total retail sales from the thrift store were $848 from June 2011 through April 2012 (an
        average of $84.80 per month for the 10-month period);

    •   NEON charged, to its CSBG Recovery Act grant, rent for use of the thrift store that was
        not based on depreciation or use allowance but was based on an estimate by NEON’s
        former director of finance and planning services; and

    •   NEON charged, to its CSBG Recovery Act grant, utilities at 24 Havilland Street, which
        included utilities for the second-floor apartment.

NEON charged $28,924 to its CSBG and CSBG Recovery Act grants for the operating expenses
of its Havilland Street thrift store. Although these costs were consistent with NEON’s CSBG
Recovery Act grant application, these expenses were not reasonable and did not meet program
objectives and, therefore, were unallowable. The unallowable operating expenses included:
$16,000 that NEON charged to the grants as “rent” for the use of NEON’s Havilland Street
facility; $9,095 paid to the former CEO’s ex-wife for contract and payroll expenses to set up and
manage the thrift store; $2,439 for display racks, equipment, and supplies to operate the store;
and $1,390 for utilities.

6
 The thrift store was closed when we conducted unannounced visits on August 16, 17, and 18 and September 13,
2011. It was also closed during unannounced visits on May 9 and 11, 2012. The thrift store was open during an
unannounced visit on May 10, 2012.

                                                       9
In addition, NEON did not report the program income generated through the apartment rent or
thrift store sales and either (1) use the program income to further CSBG and CSBG Recovery
Act program objectives or (2) deduct the program income from the total allowable CSBG and
CSBG Recovery Act program costs to determine the net allowable costs on which the Federal
share of costs should have been based.

Havilland Street Thrift Store Renovations Not Preapproved

Federal Requirements

CAAs are prohibited from using CSBG funds to purchase, construct, or permanently improve
(other than low-cost residential weatherization or other energy-related home repairs) any facility
without obtaining a Federal waiver (CSBG Act, § 678F(a)).

Renovations Without Federal Waiver

Neither NEON nor the State agency obtained a Federal waiver prior to using the CSBG
Recovery Act grant funds to permanently improve the facility. NEON charged $28,116 to the
CSBG Recovery Act grant for 33 invoices related to unallowable renovations at its 24 Havilland
Street facility. NEON’s management said that it was unaware that NEON was required to obtain
a Federal waiver before using CSBG Recovery Act funds for renovations. However, NEON
certified in its CSBG Recovery Act Risk Assessment, dated October 9, 2009, that it would not
use CSBG Recovery Act funds for the permanent improvement (other than low-cost residential
weatherization or other energy-related home repairs) of any of its facilities. Renovation costs
included:

   •   $4,647 to purchase and install hardwood flooring;

   •   $4,000 to remove carpeting, cabinets, bathroom fixtures, and provide a clean shell prior
       to renovations;

   •   $3,522 to remove old wiring and install new wiring and a fire alarm system; and

   •   $1,373 to purchase and install an outdoor fence.

PROHIBITED LOBBYING, FUNDRAISING, AND DONATION COSTS

Federal Requirements

Federal cost principles (2 CFR § 230, App. B) prohibit the following costs from being charged to
a grant award:

   •   lobbying costs used to influence the introduction, enactment, or modification of Federal
       or State legislation through communication with any member or employee of the
       congress or State legislature or with any government official or employee in connection
       with a decision to sign or veto legislation;

                                                10
   •   fundraising costs, including financial campaigns, endowment drives, solicitation of gifts
       and bequests, and similar expenses incurred solely to raise capital or obtain contributions;
       and

   •   contributions or donations, including cash, property, and services, made by the
       organization, regardless of the recipient.

Lobbying, Fundraising, and Donations Prohibited

NEON charged $14,327 in costs to its CSBG and CSBG Recovery Act grants that were
unallowable according to Federal regulations. Of these costs, $9,490 (66.2 percent) were credit
card charges made by NEON’s former CEO. Specifically, NEON charged:

   •   $8,100 for contributions and travel related to prohibited lobbying activities ($5,834 from
       the former CEO’s credit card),

   •   $3,411 for fundraising costs using the former CEO’s credit card, and

   •   $2,816 for donations ($245 from the former CEO’s credit card) to organizations such as
       State and local NAACP and community agencies.

MISSING EQUIPMENT

Federal Requirements

Federal requirements state that grantees’ financial management systems shall provide effective
control over and accountability for all funds, property, and other assets, and grantees shall
adequately safeguard all such assets and assure that they are used solely for authorized purposes
(45 CFR § 74.21(b)(3)). Grantees’ equipment records for equipment acquired with Federal
funds must include a description of the equipment, the manufacturer’s serial number or other
identification number, the source of the funds used to acquire the equipment (including the
award number), the acquisition date and cost, and the location and condition of the equipment
(45 CFR § 74.34(f)(1)). Additionally, the grantee shall (1) take a physical inventory of
equipment and reconcile the results with the equipment records at least once every 2 years (45
CFR § 74.34(f)(3)) and (2) investigate and fully document any loss, damage, or theft of
equipment (45 CFR § 74.34(f)(4)).

Missing Equipment

NEON did not maintain adequate equipment records or take physical inventories at least every 2
years as required until after we had identified inventory problems in our prior audit report. We
performed a physical inventory of 61 items of computers and other equipment totaling $68,635
that NEON charged to its CSBG and CSBG Recovery Act grants. Of the 61 items that we
selected, we were able to locate 56 items. However, we were unable to locate five items totaling


                                               11
$5,504, including two iPads, one 17-inch MacBook Pro laptop, and one iPod Touch, which were
purchased by the former CEO using his credit card, and one HP Pavilion computer.
UNALLOWABLE COSTS LIMITED THE RESOURCES AVAILABLE TO MEET
PROGRAM OBJECTIVES

These deficiencies occurred because NEON’s policies and procedures did not ensure that it
complied with all Federal grant requirements. Additionally, NEON did not have adequate
controls in place for maintaining adequate documentation, ensuring program objectives were
met, preventing personal purchases, and safeguarding equipment to ensure that it charged only
allowable costs to its CSBG and CSBG Recovery Act grants and that it followed generally
accepted sound business practices. Because NEON charged $314,605 in unallowable costs to the
grants, these funds were not available for program use. These funds could have been used to
meet the program objectives of reducing poverty, revitalizing low-income communities, and
empowering individuals to become fully self-sufficient.

RECOMMENDATIONS

We recommend that the State agency:

   •   return to the Federal Government unallowable costs, totaling $314,605, that it claimed on
       behalf of NEON; and

   •   ensure that NEON establishes and implements policies, procedures, and related internal
       controls to:

           o comply with all Federal grant requirements,

           o ensure that it charges only allowable costs to the CSBG program, and

           o ensure that it follows generally accepted, sound business practices.

NORWALK ECONOMIC OPPORTUNITY NOW COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NEON did not fully concur with our first
recommendation and provided details of the corrective actions it has taken in response to our
second recommendation. Regarding our first recommendation that the State agency return to the
Federal Government unallowable costs totaling $314,605, NEON stated that it “is not reasonable
to hold the State (or NEON) solely responsible for the actions of specific, identifiable individuals
who are directly responsible for wrongdoing ….”

States must repay the Federal Government amounts found not to have been expended in
accordance with the CSBG program requirements, or ACF may offset such amounts against
future CSBG grants (COATES Act § 678D(a)(3)). We, therefore, maintain that our first
recommendation is correct. NEON’s comments are included in their entirety as Appendix A.


                                                12
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
outlined corrective actions to (1) return funds to the Federal Government and (2) establish and
implement policies and procedures to reduce the risk of noncompliance with Federal grant
requirements. The State agency’s comments are included in their entirety as Appendix B.




                                               13
APPENDIXES
   APPENDIX A: NORWALK ECONOMIC OPPORTUNITY NOW COMMENTS Page 1 of 6
                                                                                              203-899-2420
                                                                                         FAX: 203-899-2430
                                             N.E.O.N.
                    Norwalk Economic Opportunity Now, Inc.
                              98 SOUTH MAIN STREET, NORWALK, CT 06854-3126




January 28,2013

Mr. Michael J, Armstrong
Regional Inspector General for Audit Services
Office of the Inspector General

         USDHHS, OIG draft report: Norwalk Economic Opportunity Now, Inc Did
         Not Always Charge Allowable Costs to the Community Services Block Grant
         and the Community Service Block Grant - Recovery Act Programs

         NEON, Inc.'s Comments on Draft Findings and Recommendations

Dear Mr. Armstrong:

On behalf of Norwalk Economic Opportunity Now, Inc., (NEON) in regard to your letter
dated January 11,2013, to Mr. Greg Burnett, Chairman of the Board of NEON, we have
the following response to that letter.

In order that you properly consider our views on the validity of the facts and
reasonableness of the recommendations in the report and, on behalf of NEON, I would
like to provide the following written comments:

The Former President/CEO resigned from NEON in 2012. In cooperation with the
Connecticut Department of Social Services, NEON appointed a new Interim
President/CEO and sought outside technical assistance.to cure the problems. NEON used
"accounting" methodologies that had been in place for years. With no formal business or
accounting training, the former CFO was ill-equipped to implement commonly accepted
accounting practices nor to tackle the complex cost accounting required in the
management of CSBG, Head Start and multiple other state and local funding sources
each run according to specific, sometimes conflicting policies, and across different fiscal
years and funding cycles.

We are concerned that the initial summary does not acknowledge the extent to which
NEON worked with the OIG to help uncover information and to provide documentation.
These efforts were undertaken by NEON staff in order to apportion individual
responsibility where appropriate, and otherwise to facilitate needed change from past
practices. NEON is moving forward. We have worked to overcome long-term
mismanagement and to achieve future excellence.

Although covered in the full report, the initial summary does not fully describe the action
of NEON's former Executive Management (CEO, Deputy Director, CFO) and the
Community Service Program Director with responsibility for the Twenty-Four Havilland


NEON OIG Response 1128/2013                                                               1
                     AN EQUAL OPPORTUNITY EMPLOYER - THROUGH AFFIRMATIVE ACTION
                                                                                               Page 2 of6




Boutique. Many of the problems are directly attributed to senior management no longer
associated with NEON.

Indeed, NEON's entire Board was not always fully informed of actions by the former
Executive Management and were therefore, not able to perform the appropriate oversight.
We feel it is important to acknowledge that by the time your office had completed its
audit, all persons who had been implicated in the direct violation of federal procedures
and incompetent management practices cited in the report had been separated from
NEON employment.

In recognition of problems identified by OIG and State directed audits, NEON took
immediate action to remediate alleged issues identified and to proactively uncover
potential weaknesses in NEON's other internal controls. Before the OIG on-site
investigation was completed, NEON had already started working to achieve full
compliance with all grant requirements.
            o 	 NEON Managers are now becoming familiar with program rules,
                responsibilities, reporting requirements, budgets and expectations for
                programs under their supervision (CSBG, Head Start and multiple
                unrelated state and federal programs);
            o 	 NEON purchased and has begun to implement project, inventory and
                purchasing systems. Staff training will help integrate these systems and
                procedures into daily practice and improve program accountability.
            o 	 NEON engaged a new audit firm (CohnReznick) to conduct required and
                recommended audits (see 2011 single state and federal audits released
                11126113). NEON contracted with this firm to perform a forensic audit
                covering the time period addressed in your offices audit.
            o 	 As a result of these actions programmatic and accounting inaccuracies
                identified in the report, cannot easily occur again.

NEON is working diligently to insure that charges to CSBG program are only those that
are allowable:

             o 	 In August, NEON hired an appropriately credentialed CFO.
             o 	 The agency developed and presented new budget formats for its multiple
                 cost centers enabling future detail and insuring accountability at the
                 program level, and across the entire agency.
             o 	 NEON has retained its former accounting firm (Hope and Hernandez) to
                 advise our agency in three key areas:
                     • 	 Development of an appropriate agency wide cost allocation plan
                         and the supporting processes, procedures and training that will
                         insure consistency and on-going accuracy.
                     • 	 Development/negotiation of an acceptable federal indirect cost
                         rate, and
                     • 	 The appropriate re-structure, staffing and training of NEON's
                         finance depaItment and process-related programmatic staff.




NEON OIG Response 1128/2013                                                                2
                                                                                              Page 3 of6




 In closing, NEON understands and takes seriously the issues identified and resulting
 recommendations. Our agency regrets that these deficiencies represent missed
 opportunities to meet program objectives that reduce poverty, revitalize the
 community and empower people to become self-sufficient. In recent months our
 agency has separated staff that were not moving the agency in the right direction.
 We have worked closely with those providing technical assistance in Head Start and
 CSBG areas to review, adjust, republish and train on the practices and procedures
 that will help to insure good service delivery and in time, regain the confidence of
 State, Federal, municipal and private funders.

 NEON is committed to demonstrating its ability to right the wrongs done to this
 agency's reputation and the confidence of its clients and funders by its former
 Executive leadership. Please be assured that NEON has retained counsel to further
 the process of recouping funds that were misdirected by persons formerly in
 authority. We will use any civil and/or criminal vehicles that are available in this
 circumstance to recoup misspent, fraudulently utilized or poorly accounted funds.

 We look forward to continued close collaboration with the State of Connecticut and its
 technical assistance contractors as we seek to indemnify our agency against the
 potentially devastating impact of having to repay funds to the State CSBG Agency .

 Thank you again for the opportunity to comment on the draft report. I have appended for
 your review an outline of the actions NEON, Inc has taken to rectify problems identified
 in each section of the draft OIG CSSBG/ARRA Report.

 RespeCtf~IY, .         ~            ,

~~~~~,~
Patricia Wilson Pheanious, JD, MSW 

 NEON Inc., Interim President/CEO 





 NEON OIG Response 1128/2013                                                              3
                                                                                                Page 4 of6




Outline of the actions NEON, Inc has taken to address the issue raised
in each section of the draft OIG CSSBGIARRA Report:

Unallowable Costs/Inadequate Documentation !Prohibited Fundraisingl

    • 	 Costs are now being charged as direct expenses until an indirect cost rate is 

         developed and approved. 

    •	   NEON has developed accurate square footage so that reasonable costs can be 

         accounted for and recouped when allowable by grant terms. 

    •	   Cost allocation plan being developed under the direction of an accounting firm 

         experienced in non-profit cost accounting (Hope and Hernandez). 

    •	   Credit cards have been cancelled and are no longer available to staff or CEO. The 

         agency retains one card kept in the Finance Department safe under the sole 

         authority of the comptroller. 

    •	   Expenditures are not reimbursed to anyone without proper documentation, and 

         supporting original receipts. 

    •	   Gift cards policy and procedure has been developed to insure that cards, when 

         used are properly accounted for: Strict controls are now in place. The serial 

         number of the card is noted; the purpose for which the gift card is disseminated, 

         and each recipient must sign for receipt of the card. Cards are strictly recorded 

         and disseminated as required from the finance office. 

    •	   The CEO's car was returned at the end of the lease. No new cars will be rented 

         by the agency. If the agency decides in the future to supply a car for a 

         President/CEO, the appropriate controls will be in place to insure that it is used 

         for business use only. Regular business travel logs must be kept for any person to 

         receive travel reimbursement from NEON. No personal use will be allowed or 

         personal-use miles reimbursed 

    •	   Expenses that may be classified as "fundraising" are no longer being improperly 

         changed to state or federal sources, which do not permit these expenses. 


Qnerating Costs and Renovations that Did Not Meet Program
Qbjectives: Havilland Street Thrift Store:

         • 	 The former President/CEO vetoed plans that were in place to run the
             Havilland Street Boutique in accordance with the design developed to secure
             ARRA and certain private funds. The hiring of the former President/CEO's
             ex-wife against staff objection and zoning problems that should have been
             identified and resolved early on, contributed to problems cited in the report
             and resulting in a failure to realize jobs or revenue.
         • 	 Since that time we are diligently working to return the facility to its original
             purpose. We have served clients on a regular basis. The store is now opened
             Tuesday through Friday.
         • 	 Zoning rules preventing sales have not changed, however the Norwalk Mayor
             granted an emergency request to operate in the aftermath of Hurricane Sandy.



NEON OIG Response 1128/2013                                                                 4
                                                                                              Page 5 of6




             We do not accept any money at the site. Artificial currency "NEON Bucks"
             are used providing clients with a mechanism to "purchase "clothing and
             accessories (for men, women and children) from the store. The store is staffed
             by volunteers and staff associated with our workforce initiatives. We are
             working with a locally owned business (Her Game Two to help clients learn
             to accessorize and to hold future fashion events. (Refer to News Items)
         • 	 NEON budgets now have a cost center for building renovation and repair.
         • 	 Maintenance staff has been instructed to undertake no renovations without
             securing the appropriate building certificates. The program management now
             routinely approves building renovation requests and checks them against the
             terms of grant funds proposed to insure that renovations can be documented to
             improve service delivery and are allowable under the terms of the grant.
         • 	 All purchasing is being centralized. A system of purchase orders is being
             implemented. A centralized area has been identified and staffed to insure that
             purchases are received, inventoried and specifically assigned to the
             appropriate cost center in accordance with grantee requirements.



Missing Equinment:

    • 	 Software has been installed to assist in effective inventory management:
        inventory will now include a description of the equipment, the
        manufacturers serial number or other identifying number, the grant source
        of the equipment (including award number) the acquisition date and cost
        and the location and condition of the equipment.
    • 	 A physical inventory of all equipment was undertaken and reconciled. Such
        inventories are now regularly scheduled once every other year. Agency
        procedures will require investigation and documentation of any loss, damage
        or theft of equipment.
    • 	 Certain missing Agency property (cell phones, computers, I-pads, etc.) has
        been recouped from former employees; civil/criminal means will be used to
        pursue unreturned property.
    • 	 Purchases that are directly attributable to the Agency's former
        President/CEO, and which have not been returned to the agency have been
        recouped from sick and vacation time dollars otherwise due to the former
        President/CEO when he resigned.
    • 	 NEON has employed counsel to explore legal means to recoup unaccounted
        for property. In addition, any information uncovered in the forensic audit
        will be reviewed by our Counsel and if appropriate, referred to the State's
        Attorney General for review and possible prosecution.




NEON OIG Response 1/28/2013                                                               5
                                                                                              Page 6 of6




CONCURENCE or NON-CONCURRENCE WITH DRAFT REPORT
RECOMMENDATIONS

Recommendation #1 (regarding the return of disallowed fundin~
NEON does not fully concur with Recommendations #1

NEON continues to serve thousands of clients at a time when its services are critical to
the struggle of very vulnerable people. NEON is fighting to overcome the effects of
long-term mismanagement. With the completion of its merger with CTE on September
29,2012, NEON now serves all of lower Fairfield County. Programming and fundraising
are beginning to thrive. All existing Board members have agreed to resign as soon as a
new Board is in place.

NEON has restructured its management team and expects to seat a new Board of
President/CEOs at the end of February. A training and development plan for the new
Board and management is under development focusing on governance responsibilities,
and effective cost management of agency programs.

NEON will continue to work with state officials to utilize technical assistance from
Connecticut, regional and national sources for technical assistance (Community (e.g.
Connecticut Association for Community Action, New England Institute for Quality
Community Action, CAPLA W, Brown Buckley and Tucker).

It is not reasonable to hold the State (or NEON) solely responsible for the actions of
specific, identifiable individuals who are directly responsible for wrongdoing. NEON's
critical role in the low-income community is being crippled by more than $700,000
(Head Start and CSBG) in recommended disallowances due directly to the negligence
and ineffective oversight of its former executives.

Recommendation #2: (regarding NEON's Qolicies,-urocedures and
related internal controls):

We have taken immediate, significant action to address each of the concerns raised by
OIG audits (Head Start and CSBG/ARRA).

NEON management will continue to work to implement and document important
changes in agency operations and accountability. We welcome the DSS continued
guidance and assistance as we move to recover dollars that were misdirected,
inappropriately accounted for or not used in the best interest of the vulnerable people our
staff works so hard to serve.




NEON OIG Response \/28/2013                                                               6
 Ma.r.15. 2013      5:02PM    Commissiomer DSS 	                                      No.4620        P. 2
                             APPENDIX B: STATE AGENCY COMMENTS
                                                                                            Page 1 of3
                             STA1'E OF                CONN]~CTICUlt                     TELEPHONE
                                                                                        (360) 421\·5053
                             DEPARTMENT OF SOCIAL SERVICES                              TODfITY
                                                                                         1-800-84:2.-4524

RODERICK L BREMBY
                                OII'IfICE OIl' THE COM-MISSIONER                         FA.X
Commissioner                                                                            (860) 424-505'/
                                                                                         EMA[L
                                                                                         cornmis.dss@ct.gQV
     March 15,2013



     Michael J. Armstrong
     Regional Inspector Genera I for Audit Services
     U.S. Department of Health and Human Services 

     Government Center - Room 2425 

     John F. KelUl,ecly Building 

     Boston, MA 02203 


     Re: 	     OIG Audit perfomled on Norwalk Economic Opportunity Now, Jnc. 

               Report Number A -01-11-02510 


    Dear Mr. Annstrong,

    The State of COllliecticut Department of Social Services (DSS) has reviewed the draft report
    issued by the Department of Health and H wnan Services (DHHS) Office oflnspector General
    (OIG) Audit Nurnber A-OI-II-02510. The audit objective was to detelmine the allowability
    under the terms of the grants and applicable Federal requirements of selected Community
    Services Block Grants (CSBG) and CSB G Recovery Act costs that the State Depattment of
    Social Services claimed on behalf ofNorwalk Economic Opportunity Now, Inc. (NEON).
    Provided below is om written comments for each recommendation.

    OIG Recommendation: 

    We recommend that the State agency retllm to the Federal Government unallowable costs, 

    totaling $314,605 that it claimed on behalf of NEON. 


    State of ConmlCticut Department of Social Services comments:
    The stclte concurs with the recommendation in that all unallowable expenditures incurred under
    the CSBG should be retumed to the Federal govenmlenl. TIle department will require NEON to
    reimburse any unallowable costs charged to the CSBG and CSBG-ARRA programs. Repayment
    discussions have already begun. The Department of Soc~al Services legal counsel will review
    whether any legal action may be warranted based on the i1ndings in the OIG audit report.




                    25 SIGOURNEY STREET . HARTFORD, CONNECTICUT 06106-5033 

                                An Equal Opportunity I AHhmative ActjOrt Employer 

                                       Printed on Recyc[ed or Recovered Paper 

                                                www.ct.gov/dss 

Ma. r. 15.- 2013 5: 03PM     Commissiomer DSS                                          No.4620      P. 3
                                                                                              Page 2 of3


     Mr. Michael J. Annstrong 

     March 15,2013 

     Page 2 




     OIG RecoulIue'ndatio : 

     We recommend that the State agency ensure that NEON establishes and implements policies, 

     procedlu'es] and related intetnal controls to: 


         • 	 comply with all Federal grant requirements,
         • 	 ensure that it charges only allowable costs to the CSBG program, and
         • 	 ensure that it follows generally accepted, sound business praclice!;.

     State of Connectkut Department of Social Services comments:
     The state conenrs with the recommendation that procedures need to be established and
     implemented. The department has reviewed NEON's response to the audit concerning NEON's
     new procedures that have been developed. The department believes that these new procedures
     will reduce the risk of noncompliance with Federal grant requirements.

     The department contracted with a consultant in calendar 2012 to assist all community action
     agencies in establishing adequate internal controls. As part of this contract, the consultant is
     reviewing practices of community action agencies and making recommendations for
     improvement.

    To further ensure adequate controls are in place for all Connecticut's community action agencies,
    the department has taken additional steps to ensure that the goals of federal and state grants
    provided to commllllity action agencies are met, as weU as ensuring that the agencies are
    complying with applicable federal and state requirement as follows:

        • 	 The Depalirnent is in the pwcess of developing a new unit, the Office of Community
            Services, that will be dedicated. to working closely with community, state, and t'ederal
            partners to administer programs designed to ameliorate the causes <Uld characteristics of
            povet1y or otherwise assist persons in need. The goal of this move is to devote focused
            expertise to these important programs.

        • 	 A new role within the Office of Quality Assurance-Audit Division is being developed to
            improve the Department's oversight and monitoring of DSS-funded contractors including
            community action agencies. The Audit Division, in coordination with the various
            program divisions, will be responsible for fiscal and compliance monitoring of the
            agencies to ensure that Federal and State awards are expended in compliance with laws.
            regulations, and the provisions of contracts or grant agreements ar d that perfonnance
            goals are achieved. In addition, this monitoring will also include the review of intemal
            controls ofthe financial management and accounting systems and recommend
            improvements, as needed, to account for program fimds in accordance with state, federal
            or other program requirements.
    Ma.r.15. 201 3 5: 03PM       Co mmiss iomer DSS 	                                     No. 4620    P. 4
                                                                                                Page 3 of3
•
        Mr. Michael J. Armstrong
        March 15,2013 .
        Page 3



        The Department of Social Services appreciates the opportunity to provide comments in response
        to the OIG audit findings. The uepaltment looks forward to improving its effectiveness as a
        partner in the administration of CSnG funds on behalf of the individuals and f:mlilies in the State
        of Connecticut receiving critical st=fvices provided by the state)s network of community action
        agencies.



        Sincerely,




        ~deriCkL.~
       commiSSio~~y
       c: 	    Claudette Beaulieu, Deputy Commissioner 

               Astread Ferron-Poole, Chief of Staff 

               John McConnick, Director of Quality Assurance 

               Frank LaRosa) Director of Internal Audits 

